No. 20-255

 

 

IN THE
Supreme Court of the United States

MAHANOY AREA SCHOOL DISTRICT, PETITIONER,
v.
B. L., AMINOR, BY AND THROUGH HER FATHER, LAWRENCE
LEVY AND HER MOTHER, BeTTy Lou LEVY

ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

BRIEF FOR THE NATIONAL WOMEN’S LAW CENTER,
LAMBDA LEGAL DEFENSE AND EDUCATION FUND, INC.,
THE LAWYERS’ COMMITTEE FOR CIVIL RIGHTS UNDER
LAW, AND 30 ADDITIONAL ORGANIZATIONS AS AMICI
CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,995 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
